                    Federal Communications Commission
                               Washington


OFFICE OF INSPECTOR GENERAL

MEMORANDUM


     DATE:             May 3, 2004

REPLY TO
 ATTN OF:              Inspector General

 SUBJECT:              Semiannual Report

         TO:           Chairman

In compliance with Section 5 of the Inspector General Act, as amended, 5 U.S.C.
App. 3, § 5, I respectfully submit the Office of Inspector General (OIG)
Semiannual Report summarizing the activities and accomplishments of the OIG
during the six-month period ending March 31, 2004. In accordance with Section 5
(b) of the Act, this Semiannual Report along with the report that you as head of the
agency prepares, should be forwarded to the appropriate Congressional oversight
committees within 30 days of your receipt of this report.

During this reporting period, as in the previous one, OIG activity continued to
focus on the Universal Service Fund activities because of continuing allegations of
waste and fraud, and the results of beneficiary audits performed by contract
auditors and Commission staff. Our efforts in this area have been summarized in a
special section of this report entitled “Universal Service Fund.”

The report details a number of audits underway and completed at the Commission
during the preceding six months including the annual financial statement audit, the
Federal Information Security Management Act (FISMA) evaluation and risk
assessment, and an audit of the Commission’s Revenue Accounting and
Management Information System.

Investigative personnel continued to address investigative issues referred to and
developed by this office. Where appropriate, investigative reports have been
forwarded to management for action.

This office remains focused upon providing our customers with the highest
possible level of professionalism and quality through our audits, investigations
and consultations.



                                      H. Walker Feaster, III
                                      Inspector General

Enclosure

cc: Chief of Staff
    Managing Director
      Table of Contents

Introduction……………………………………………………. 2


Universal Service Fund……………………………………….3


Audits……………………………………………………………..20


Management…………………………………………………….41


Investigations………………………………………………….42


Legislation……………………………………………………….46


IG Hotline………………………………………………………..47


Specific Reporting Requirements of the
Inspector General Act……………………………………….49


OIG Reports With Questioned Costs……………………52




                      1
                   Introduction
The Federal Communications Commission (FCC) is an independent
regulatory agency, which was delegated authority by Congress under
the Communications Act of 1934, as amended by the
Telecommunications Act of 1996. The FCC is charged with the
regulation of interstate and international communication by radio,
television, wire, satellite and cable. The FCC’s jurisdiction covers the
fifty states, the District of Columbia and all the U.S. possessions.
Under the Communications Act, the FCC is mandated to make rapid,
efficient, nationwide and worldwide wire and radio communication
service available to all people in its jurisdiction. The FCC performs four
major functions to fulfill this charge:

 • Spectrum allocation
 • Creating rules to promote fair competition and protect
   consumers where required by market conditions
 • Authorization of service
 • Enforcement

The Chairman and four Commissioners are appointed by the President
and confirmed by the Senate.

Michael K. Powell was designated Chairman on January 22, 2001.
Kathleen Q. Abernathy, Jonathan S. Adelstein, Michael J. Copps and
Kevin J. Martin serve as Commissioners. The majority of FCC
employees are located in Washington, D.C. FCC field offices and
resident agents are located throughout the United States. FCC
headquarters staff are located in the Portals II building located at 445
12th St., S.W., Washington, D.C. 20554.

The Office of Inspector General (OIG) dedicates itself to assisting the
Commission as it continues to improve its effectiveness and efficiency.
The Inspector General (IG), H. Walker Feaster III, reports directly to
the Chairman. The OIG staff consists of eleven professionals and a
student intern. Principal assistants to the IG are: Thomas Cline,
Assistant Inspector General (AIG) for Audits; Thomas Bennett, AIG for
Universal Service Fund Oversight; Charles J. Willoughby, AIG for
Investigations; and Thomas M. Holleran, AIG for Policy and Planning.
Mr. Willoughby also serves as counsel.

                                    2
   Universal Service Fund
  Independent Oversight of the Universal Service Fund (USF)

Beginning with our semi-annual report for the period ending March 31,
2002, we have included a section highlighting our efforts to implement
effective, independent oversight of the Universal Service Fund (USF).
We decided that it was necessary to highlight our efforts to provide
independent oversight of the USF to ensure that Congress and other
recipients of our semi-annual report clearly understood our concerns
about this program. We have also used this section of the semi-
annual report to identify obstacles to the effective implementation of
our oversight program.

In this semi-annual report, we provide a brief background on our
efforts to implement independent oversight of USF, an update on our
oversight activity during the reporting period, and comments on those
areas of the program where we have concerns as a result of our
involvement in audits and investigations.

                      History of USF Oversight

The FCC Office of Inspector General (OIG) first looked at the USF in
1999 as part of our audit of the Commission’s FY 1999 financial
statement when the USF was determined to be part of the FCC’s
reporting entity for financial statement reporting. During that audit,
we questioned Commission staff regarding the nature of the USF and,
specifically, whether it was subject to the statutory and regulatory
requirements for federal funds. Starting with that inquiry, the Office of
Inspector General has continued to devote considerable resources to
independent oversight of the USF.

Due to materiality and our assessment of audit risk, we have focused
much of our attention on the USF mechanism for funding telecommu-
nications and information services for schools and libraries, also known
as the “Schools and Libraries Program” or the “E-rate” program.
Applications for program funding have increased from 30,675 in the
first year of the program (funding year 1998) to 43,050 for the current
funding year and have included 15,255 different service providers.
Applications have been received from schools and libraries in each of

                                    3
    Universal Service Fund
the 50 states, the District of Columbia, and most territories. Requested
funding has increased from $2,402,291,079 in funding year 1998 to
$4,538,275,093 for the current funding year.

Unfortunately, several obstacles have impeded our ability to implement
effective, independent oversight of the program. The primary obstacle
has been a lack of adequate resources to conduct audits and provide
audit support to investigations. Since our initial involvement in
independent oversight of the USF as part of our conduct of the FY 1999
financial statement audit, we have demonstrated our commitment to
independent oversight of the USF by adding two (2) staff auditor posi-
tions and by organizing USF oversight activities under an Assistant In-
spector General for USF Oversight. This represents dedication of three
(3) of the eight (8) auditors on the staff of the FCC OIG to USF over-
sight. In addition to the OIG staff dedicated to USF oversight, two (2)
audit staff members responsible for financial audit are also involved in
USF oversight as part of the financial statement audit process. In addi-
tion to assigning audit staff to USF oversight, we have requested ap-
propriated funding to obtain contract support for our USF oversight ac-
tivities. In our FY 2004 budget submission, we requested $2 million for
USF oversight. That request was increased to $3 million in the Presi-
dent’s budget submission for FY 2004. Unfortunately, this funding was
not included in the Commission’s final budget for FY 2004. We are cur-
rently considering alternatives for obtaining access to contract audit
support to implement the USF oversight portions of our FY 2004 audit
plan.

Despite limited resources, my office has implemented an aggressive
program for independent oversight of the USF. The oversight program
includes: (1) audits conducted using internal resources; (2) audits con-
ducted by other federal Offices of Inspector General under reimburs-
able agreements; (3) review of audit work conducted by USAC; and (4)
active participation in federal investigations of E-rate fraud.




                                   4
   Universal Service Fund
OIG Audits Using Internal Resources
In October 2001, we obtained four (4) auditors from the Commission’s
Common Carrier Bureau (since reorganized as the Wireline Competition
Bureau) on a temporary detail. We have completed eight (8) of the
audits that we initiated using detailed auditors, including four (4) dur-
ing the reporting period. For the eight (8) audits that have been com-
pleted, we concluded that applicants were compliant with program
rules in four (4) of the audits, that applicants were generally compliant
in two (2) of the audits, and that the applicants were not compliant
with program rules in two (2) of the audits. For the four (4) audits
where we determined that applicants were generally compliant or not
compliant, we have recommended recovery of $218,447. We have
been advised that the Commission’s Office of Managing Director (OMD)
has directed USAC to initiate recovery proceedings for the recom-
mended recovery amount of $218,447. Please refer to the audit report
section of the semi-annual report for detailed information regarding E-
rate audits completed during the reporting period.

Audits Conducted by Other Federal Offices of Inspector General
On January 29, 2003, we executed a Memorandum of Understanding
(MOU) with the Department of the Interior (DOI) OIG. This MOU is a
three-way agreement among the Commission, DOI OIG, and USAC for
audits of schools and libraries funded by the Bureau of Indian Affairs
and other universal service support beneficiaries under the audit cogni-
zance of DOI OIG. Under the agreement, auditors from DOI OIG per-
form audits for USAC and the FCC OIG. In addition to audits of schools
and libraries, the agreement allows for the DOI OIG to consider re-
quests for investigative support on a case-by-case basis. During the
reporting period, we issued two (2) reports under this MOU and com-
pleted fieldwork on three (3) additional audits. For the two (2) audits
that were completed, we concluded that the applicant was compliant
with program rules in one (1) of the audits and that the applicant was
not compliant with program rules in one (1) of the audits. For the au-
dit where we determined that the applicant was not compliant, we have
recommended recovery of $2,084,399. We have been advised that the
Commission’s Office of Managing Director (OMD) has directed USAC to
initiate recovery proceedings for the recommended recovery amount of
$2,084,399. Please refer to the audit report section of the semi-

                                    5
    Universal Service Fund
annual report for detailed information regarding E-rate audit completed
during the reporting period.

We have also established a working relationship with the Office of In-
spector General at the Education Department (Education OIG). In April
2003, Education OIG initiated an audit of the use of federal education
funding to purchase equipment to make effective use of internal con-
nections and internet connectivity funding by E-rate at a large recipi-
ent. The FCC OIG provided support to this audit. In January 2004,
Education OIG presented a plan for an audit of telecommunication ser-
vices at a large E-rate recipient. We are continuing to discuss initiation
of this audit with Education OIG, USAC, and Commission management.

Review of USAC Audits
We have reviewed work performed by USAC’s Internal Audit Division
and performed the procedures necessary under our audit standards to
rely on that work. In December 2002, USAC established a contract
with a public accounting firm to perform agreed-upon procedures at a
sample of seventy-nine (79) beneficiaries from funding year 2000. The
audit program for this review was created with input from the OIG and
the sample of beneficiaries was selected by the OIG. In a departure
from the two previous large-scale E-rate beneficiary audits conducted
by USAC, the agreed-upon procedures being performed under this
contract would be performed in accordance with both the Attestation
Standards established by the American Institute of Certified Public
Accountants (AICPA) Standards and Generally Accepted Government
Auditing Standards, issued by the Comptroller General (GAS 1994
revision, as amended) (GAGAS). In March 2003, we signed a contract
with a public accounting firm to provide audit support services for USF
oversight to the OIG. The first task order that we established under
this contract was for the performance of those procedures necessary to
determine the degree to which we can rely on the results of that work
(i.e., to verify that the work was performed in accordance with the
AICPA and GAGAS standards). The OIG review team is currently
completing this work. Many of the audit findings raised by this body of
work are reflected in the section addressing concerns with the E-rate
program.


                                    6
    Universal Service Fund
Support to Investigations
In addition to the audit component of our independent oversight pro-
gram, we are providing audit support to a number of investigations of
E-rate recipients and service providers. To implement the investigative
component of our plan, we established a working relationship with the
Antitrust Division of the Department of Justice (DOJ). The Antitrust Di-
vision has established a task force to conduct USF investigations com-
prised of attorneys in each of the Antitrust Division’s seven (7) field of-
fices and the National Criminal Office.

As of the end of the reporting period, we were supporting twenty-six
(26) investigations and monitoring an additional sixteen (16) investiga-
tions. Unfortunately, the increased interest in these cases has resulted
in an increased demand for OIG audit support. In fact, the amount of
audit support has exacerbated our previously stated concern about the
availability of resources and our ability to implement other components
of our USF oversight plan. Allegations being investigated in these
cases include the following:

  • Procurement irregularities – including lack of a competitive process
    and bid rigging.
  • False Claims – Service Providers billing for goods and services not
    provided.
  • Ineligible items being funded.
  • Beneficiaries are not paying the local portion of the costs resulting
    in inflated costs for goods and services to the program and poten-
    tial kickback issues.

Significant accomplishments in investigative support during the report-
ing period are as follows:

   • We issued one (1) report summarizing the results of audit proce-
     dures performed at the request of federal law enforcement in sup-
     port of an on-going investigation. In our report, we identified
     monetary findings in the amount of $766,062 related to goods and
     services that were missing or were not provided and for which the
     service provider was paid. We also identified several apparent in-
     stances of noncompliance with program rules. Issues of noncom-

                                     7
       Universal Service Fund
       pliance included schools not budgeting for, or paying, the non-
       discounted portion of the cost of goods and services provided and
       schools not preparing technology plans in accordance with pro-
       gram implementing procedures or submitting technology plans for
       review and approval in accordance with program rules.
   •   OIG staff testified before three (3) federal Grand Juries investigat-
       ing E-rate fraud.
   •   We received allegations and opened six (6) new E-rate fraud
       cases. We are providing support to federal law enforcement in the
       conduct of these cases.
   •   We were advised of four (4) new E-rate fraud cases that we are
       monitoring.
   •   We completed fieldwork on two (2) E-rate fraud cases for which
       federal law enforcement requested that we conduct audit proce-
       dures. We provided the results of those audit procedures to fed-
       eral law enforcement.

                   Concerns with the E-rate Program

Since we became involved in USF oversight, we have devoted a consid-
erable portion of available resources to USF oversight, focusing primar-
ily on the E-rate program. We have conducted audits and evaluated
the results of audits conducted by others, supported numerous federal,
state, and local investigations, and examined the program for purposes
of planning effective, independent oversight. We believe that the work
that we have performed provides us with a unique perspective on the
program in general and specifically on fraud, waste, and abuse in the
program. In this section of the semi-annual report, we address as-
pects of the program where we have concerns as a result of our in-
volvement in audits and investigations. These concerns include macro
level issues related to audit resolution and fund recoveries and specific
concerns related to program design and beneficiary compliance.

Resolution of Audit Findings and Fund Recoveries
During this semi-annual reporting period, we have become increasingly
concerned about efforts to resolve audit findings and to recover funds
resulting from E-rate beneficiary audits. We have observed that find-
ings from audits conducted by USAC are not being resolved in a timely

                                      8
    Universal Service Fund
manner and that, as a result, timely action is not being taken to re-
cover inappropriately disbursed funds. In some cases, it appears that
the delay is caused by USAC. In other cases, findings are not being re-
solved because USAC is not receiving necessary guidance from the
Commission in a timely manner. Under program rules, USAC is prohib-
ited from making policy, interpreting unclear provisions of the statute
or rules, or interpreting the intent of Congress. As a result this prohibi-
tion, USAC must seek guidance from the Commission when audit find-
ings are not clearly violations of Commission rules or when other policy
questions are raised.

The second large-scale audit of E-rate beneficiaries was conducted by
the public accounting firm of Arthur Andersen under contract to USAC.
In 2001, USAC contracted with Arthur Andersen to conduct audits at
twenty-five (25) beneficiaries from funding years 1999 and 2000. Au-
dited disbursements to these beneficiaries at the same time these au-
dits were completed totaled $322 million. Arthur Andersen provided a
draft audit report summarizing the results of these audits on May 31,
2002. The final report, including responses from the USAC Schools and
Libraries Division, was released by the Schools and Libraries Committee
of the USAC Board of Directors on April 23, 2003, eleven months after
the draft report was provided by Arthur Andersen. The audit report
disclosed monetary findings at fourteen (14) of the twenty-five (25)
beneficiaries including $11.4 million dollars in inappropriate disburse-
ments and unsupported costs. As of September 30, 2003, USAC had
recovered $1,927,579 in inappropriate disbursements and unsupported
costs and initiated recovery actions for another $1,353,741, of which
$709,013 is under appeal. We have been advised that USAC initiated
recovery actions for the remaining $8,059,141 during the reporting pe-
riod. In addition, the report identified findings at many of the benefici-
aries where there are no monetary findings.

The final report adopted by the Universal Service Board also identified
eleven (11) policy issues, relating to thirty-three (33) separate find-
ings, for which USAC determined that FCC policy guidance was re-
quired. The dollar value of potential fund recoveries associated with
these thirty-three (33) findings was not available because, in most
cases, the final report indicated that those amounts had not been

                                     9
   Universal Service Fund
determined. Policy issues identified included the lack of fixed asset and
associated records, maintenance of connectivity once it is established,
technology plan approver control and requirements, insufficient docu-
mentation including lack of invoice detail and vendor payment informa-
tion, incomplete or insufficient competitive bidding documentation,
monitoring of technology plan goals and objectives, and physical secu-
rity of equipment. Although the final report was released on April 23,
2003, USAC did not request policy guidance from Commission staff
until October 2003. In January 2004, Commission staff provided
“informal” guidance to USAC related to E-rate beneficiary audits being
conducted by KPMG. These informal comments included reference to
four (4) of the eleven (11) Arthur Anderson round 2 policy questions
raised by USAC in their October 2003 request. On March 4, 2004,
Commission staff provided guidance to USAC on the eleven (11) policy
issues, almost two years after the draft report was submitted by Arthur
Andersen. Many of the policy questions raised in USAC’s request for
guidance address issues identified in other audits including other E-rate
beneficiary audits conducted by USAC’s Internal Audit Division and
those conducted by the FCC OIG. Where appropriate, we have incorpo-
rated Commission staff policy guidance under the next section of the
semi-annual report addressing our concerns regarding program design
and beneficiary compliance.

Program Design and Beneficiary Compliance
The rules governing USAC’s administration of all universal service pro-
grams are found in Part 54 of the Commission’s rules. As previously
discussed, USAC is prohibited under program rules from making policy,
interpreting unclear provisions of the statute or rules, or interpreting
the intent of Congress. However, under Commission staff oversight,
USAC has implemented numerous policies and procedures to adminis-
ter the E-rate program. In some cases, the Commission has expressly
endorsed specific USAC operating procedures in Commission orders; in
other cases, the Commission has formally codified USAC procedures
into its rules. In other cases, however, USAC procedures have not
been formally adopted by the FCC. In those cases where USAC imple-
menting procedures have not been formally adopted by the Commis-
sion, Commission staff has stated that there is no legal basis for recov-
ery of funds when applicants fail to comply with these procedures.

                                   10
   Universal Service Fund
During this reporting period, we began a discussion with Commission
staff regarding the adoption of USAC implementing procedures as pro-
gram rules. Initially, Commission staff reported that USAC procedures
have also been memorialized in FCC Forms that receive approval from
the Office of Management and Budget. In March 2004, we received up-
dated guidance from Commission staff stating that they now believe
that they cannot use beneficiary failure to comply with the record re-
tention requirements listed in FCC forms as the sole basis for recovery
of funds until the Commission adopts a rule that requires them to keep
the documents, without regard to individual record retention require-
ments.

We are concerned about the distinction that Commission staff makes
between program rules and USAC implementing procedures for a
number of reasons. First, we believe that this distinction represents a
weakness in program design. As stated previously, USAC has estab-
lished implementing procedures presumably for the purpose of ensur-
ing that program beneficiaries comply with program rules and that the
objectives of the program are met. In those cases where USAC has
established implementing procedures that are not supported by pro-
gram rules, USAC and the Commission have limited ability to enforce
beneficiary compliance with these implementing procedures. We are
concerned with the number of audits that have been completed that
include findings of non-compliance with USAC implementing procedures
for which no recovery actions are intended. For example, the Commis-
sion has established a rule requiring that applicants keep the kinds of
procurement records that they keep for other purchases and USAC has
established procedures to require numerous program-related docu-
ments. However, Commission staff have not defined what they mean
by a procurement record and have provided guidance to indicate that it
can be interpreted narrowly or broadly. Numerous audits have
included audit findings citing beneficiaries for lack of documentation.
In fact, lack of documentation was cited as finding by KPMG in fourteen
(14) of the sixty-two (62) audits they recently completed under con-
tract to USAC. Commission staff have taken the position that these
findings do not represent rule violations and do not serve as a basis for
recovery of funds.


                                   11
    Universal Service Fund
Second, we believe that it is critical that participants in the E-rate pro-
gram have a clear understanding of the rules governing the program
and of the consequences that exist if they fail to comply with those
rules. We are concerned that the Commission has not determined the
consequences of beneficiary non-compliance in many cases and that, in
those instances where Commission staff have addressed the issue of
consequences for non-compliance, the consequences associated with
clear violations of program rules do not appear to be consistent. For
example, program rules require that applicants prepare a technology
plan and that the plan be reviewed and approved by an approved tech-
nology plan approver. Commission staff have consistently stated that
the failure to have an authorized technology plan is a basis for the full
recovery of those disbursed funds for which the technology plan was
required. However, in the case of a violation of program rules govern-
ing the discount rate calculation, Commission staff has stated that it is
appropriate to base recovery on the recalculation of the discount rate
using National School Lunch Program (NSLP) numbers. The financial
effect of beneficiary non-compliance with program rules in these two
examples is vastly different and, we believe, represents inconsistent
treatment of program rule violations and the consequences of those
violations. In the case of beneficiary non-compliance with discount
calculation rules, it is our opinion that the position taken by Commis-
sion staff on the appropriate basis for recovery provides little deter-
rence to non-compliance with those rules governing discount calcula-
tion especially when compared to the consequences for failure to
comply with technology planning rules.

Third, a clear understanding of the distinction between program rules
and USAC implementing procedures is necessary for the design and
implementation of effective oversight. It is necessary for the timely
completion of audits and the timely resolution of audit findings, and the
implementation of corrective action resulting from audits. Based on
our involvement in audits and investigations, it has been our observa-
tion that program participants generally consider USAC as the source
for definitive guidance on the rules governing the E-rate program.
However, as we have discussed, USAC must rely on Commission staff
guidance to determine whether an audit finding represents a violation
of program rules for which a funding recovery or other action can be

                                    12
       Universal Service Fund
taken or not. It is also important to note that this distinction between
program rules and USAC implementing procedures is seldom made in
guidance provided by USAC to E-rate beneficiaries. For example, in the
area of technology planning, Commission staff has provided guidance
stating that FCC rules require only that applicants have a technology
plan and that the plan be approved by the state or an alternative tech
plan approver in a timely fashion. USAC guidance on technology plan-
ning identifies these requirements and states that to qualify as an ap-
proved technology plan for a Universal Service discount, the plan must
(emphasis added) contain specific elements to address school and
library technology initiatives. Numerous audits have identified benefici-
ary non-compliance with USAC implementing procedures governing
technology planning. In fact, failure to address required technology
plan elements was cited as findings by KPMG in nine (9) of the sixty-
seven (62) audits they recently completed under contract to USAC.
Commission staff has taken the position that these findings do not
represent rule violations and do not serve as a basis for recovery of
funds.

Applicant Technology Planning – As we have stated previously, pro-
gram rules require that applicants prepare a technology plan and that
the technology plan be approved. The approved technology plan is
supposed to include a sufficient level of information to justify and
validate the purpose of a request for E-rate funding. USAC implement-
ing procedures state that approved technology plans must establish the
connections between the information technology and the professional
development strategies, curriculum initiatives, and library objectives
that will lead to improved education and library services. Although the
technology plan is intended to serve as the basis for an application, we
have observed many instances of non-compliance with program rules
and USAC procedures related to the technology planning process.
Examples of technology planning concerns identified during audits and
investigations are as follows:

   •   Technology plans are not being reviewed and approved in accor-
       dance with program rules. Commission staff has provided guid-
       ance failure to prepare a technology plan and have that plan ap-
       proved in a timely manner is basis for full recovery of disburse-

                                    13
   Universal Service Fund
ments.
  • Technology plans not addressing all required plan elements in ac-
     cordance with USAC implementing procedures for technology
     planning. Commission staff has provided guidance that failure to
     comply with USAC implementing procedures for technology plans
     is not a rule violation and does not warrant recovery of funds.
  • Applicants not being able to provide documentation to support
     the review and approval of technology plan. USAC guidance on
     technology planning states that “(i)n the event of an audit, you
     may be required to produce a certification similar to the SLD
     sample "Technology Plan Certification Form," in order to docu-
     ment approval of your technology plan.” Numerous audits have
     included findings beneficiaries were unable to provide documen-
     tation to demonstrate the review and approval of technology
     plans. Commission staff have stated that, although program
     rules require that applicants have a technology plan and that the
     plan be approved, the rules do not require that the applicant
     maintain specific documentation regarding the approval process.
     Given that Commission staff have not defined “procurement re-
     cords” that are required by program rules, we are unsure how
     Commission staff could have determined that documents demon-
     strating technology plan approval are not required.

Competitive Procurement - Program rules require that applicants use a
competitive procurement process to select vendors. In establishing
this requirement, the Commission recognized that “(c)ompetitive bid-
ding is the most efficient means for ensuring that eligible schools and
libraries are informed about all of the choices available to them” and
that “(a)bsent competitive bidding, prices charged to schools and li-
braries may be needlessly high, with the result that fewer eligible
schools and libraries would be able to participate in the program or the
demand on universal service support mechanisms would be needlessly
great.”

Applicants are required to submit a form 470 identifying the products
and services needed to implement the technology plan. The form 470
is posted to the USAC web page to notify service providers that the ap-
plicant is seeking the products and services identified. Applicants must

                                   14
   Universal Service Fund
wait at least 28 days after the form 470 is posted to the web site and
consider all bids they receive before selecting the service provider to
provide the services desired. In addition, applicants must comply with
all applicable state and local procurement rules and regulations and
competitive bidding requirements. The form 470 cannot be completed
by a service provider who will participate in the competitive process as
a bidder and the applicant is responsible for ensuring an open, fair
competitive process and selecting the most cost-effective provider of
the desired services. In their guidance, USAC encourages applicants
to save all competing bids for services to be able to demonstrate that
the bid chosen is the most cost-effective, with price being the primary
consideration. Commission staff have stated that “(t)here is no FCC
requirement that an applicant keep all competing bids for services.”
Given that the Commission has not defined “procurement records” that
are required by program rules, we are unsure how Commission staff
could have determined that these documents, that are clearly part of
the procurement process, are not required.

Although the program’s competitive bidding requirements were in-
tended to ensure that schools and libraries are informed about all of
the choices available to them, we have observed numerous instances in
which beneficiaries are not following the program’s competitive bidding
requirements or are not able to demonstrate that competitive bidding
requirements are being followed. Examples of competitive procure-
ment concerns identified during audits and investigations are as
follows:

   • Applicant did not follow program rules for a competitive process
     with price as the primary determining factor.
   • Applicant did not follow state and local procurement regulations.
   • Applicant did not maintain documentation to demonstrate compli-
     ance with the programs competitive procurement requirement.

Program rules require that applicants follow a competitive process and
that applicants keep the kinds of procurement records that they keep
for other purchases. However, Commission staff have provided guid-
ance stating that “the mere failure of the beneficiary to produce docu-
mentation relating to the competitive bidding process cannot form

                                   15
   Universal Service Fund
the basis for finding a rule violation or seeking recovery of funds. A
rule violation could be established if the audit process secured the
beneficiary’s record retention plan and determined that the beneficiary
had failed to comply with that policy.” In that guidance, Commission
staff goes on to state that a rule violation “could be established if the
audit process secured the beneficiary’s record retention plan and deter-
mined that the beneficiary had failed to comply with that policy.” In
effect, Commission staff has taken the position that if no record reten-
tion plan exists, there is no requirement for the applicant to maintain
records.

Discount Calculation - The E-rate program allows eligible schools and
libraries to receive telecommunications services, Internet access, and
internal connections at discounted rates. Discounts range from 20% to
90% of the costs of eligible services, depending on the level of poverty
and the urban/rural status of the population served, and are based on
the percentage of students eligible for free and reduced lunches under
the National School Lunch Program (NSLP) and other approved alterna-
tive methods. A number of audits have identified audit findings that
applicants have not followed program requirements for discount rate
calculation or were unable to support the discount rate calculated. As
discussed above, we are concerned with guidance that Commission
staff have provided on the consequences of failure to comply with
program rules governing discount calculation.

Payment of the Non-Discount Portion - Applicants are required to pay
the non-discount portion of the cost of the goods and services to their
service providers and service providers are required to bill applicants
for the non-discount portion. In establishing this requirement, the
Commission recognized that “(r)equiring schools and libraries to pay a
share of the cost should encourage them to avoid unnecessary and
wasteful expenditures because they will be unlikely to commit their
own funds for purchases that they cannot use effectively.” Further, the
Commission recognized that “(a) percentage discount also encourages
schools and libraries to seek the best pre-discount price and to make
informed, knowledgeable choices among their options, thereby building
in effective fiscal constraints on the discount fund.”


                                   16
       Universal Service Fund
As a result of our involvement in audits and investigations, we have the
following concerns regarding payment of the non-discount portion:

   • Applicant not paying the non-discount portion. Commission staff
     have provided guidance stating that if the non-discount portion
     was not budgeted for and was not paid, this is always a rule viola-
     tion authorizing full recovery. If the non-discount portion was
     budgeted and not paid, Commission staff have provided guidance
     that this is technically a rule violation authorizing full recovery but
     that mitigating factors can be considered. Mitigating factors can
     include bona fide disputes with service providers over delivery of
     service, claims of fraud, or violations of procurement practices.
   • Applicant not paying the non-discount portion in a timely manner.
     Commission staff have provided guidance stating that, although
     program rules require that applicants pay the non-discount por-
     tion, the rules do not establish a time frame in which the applicant
     must make payment.
   • Service providers not billing recipients for the non-discount por-
     tion.

Delivery of Goods and Services - Site visits are conducted during most
E-rate beneficiary audits. Site visits are conducted for several reasons
including to evaluate the eligibility of facilities where equipment is in-
stalled, verify that equipment is installed and operational, and to verify
that equipment is being used for its intended purpose. Examples of
concerns identified during audits and investigations are as follows:

   •   Goods and services not being provided.
   •   Unauthorized substitution of goods and services. Some question
       remains about the consequences associated with this audit find-
       ing. In response to a request for informal comments on a recent
       draft audit report, Commission staff provided informal guidance
       on this issue stating that “(i)f a service substitution is unauthor-
       ized it is a rule violation authorizing full recovery.” As we were
       finalizing the audit report to issue in draft for formal comment,
       Commission staff withdrew this guidance and provided revised
       guidance stating that they believe that “ultimately the question
       about the appropriate penalties and remedies in this situation …

                                     17
    Universal Service Fund
about the appropriate penalties and remedies in this situation … may
require official Commission action.”
   • Goods and services being provided to ineligible facilities (e.g.,
     non-instructional building including dormitories, cafeterias, and
     administrative facilities).
   • Equipment not being installed or not operational. Program rules
     require that nonrecurring services be installed by a specified date.
     However, there is no specific FCC rule requiring beneficiaries to
     use equipment in a particular way, or for a specified period of
     time, or to full efficiency. Commission staff have provided guid-
     ance stating that if the equipment was uninstalled (i.e., still in a
     box) that would represent a rule violation. However, Commission
     staff have also provided guidance stating that the rules do not re-
     quire that beneficiaries effectively utilize the services provided or
     that the beneficiaries maintain continuous network or Internet
     connectivity once internal connections are installed.

It appears the Commission has taken steps during the reporting period
to assess some of the areas where we have expressed concern. On
December 23, 2003, the Commission released the Second Further No-
tice of Proposed Rulemaking (CC Docket No. 02-6) related to the
Schools and Libraries Universal Service Support Mechanism. In the
Second Further Notice, the Commission has requested comment on
several of the areas where we have expressed concern regarding pro-
gram design including competitive bidding requirements, recovery of
funds, recordkeeping requirements, and technology planning.

Conclusion
The Office of Inspector General remains committed to meeting our re-
sponsibility for providing effective independent oversight of the Univer-
sal Service Fund program. As we have described in this semi-annual
report, we continue to have numerous concerns about this program.
The results of audits that have been performed and the allegations un-
der investigation lead us to believe the program may be subject to a
high risk of fraud, waste, and abuse through noncompliance and pro-
gram weakness. We are concerned with efforts to resolve audit find-
ings and to recover funds resulting from E-rate beneficiary audits and
we are concerned with aspects of program design and beneficiary

                                    18
   Universal Service Fund
compliance with program rules.

We believe we have made significant progress toward our goal of de-
signing and implementing an effective, independent oversight program.
However, primarily because of a lack of adequate resources, we have
been unable to implement our oversight program. As I have stated
previously in my semi-annual reports to the Congress, until resources
and funding are available to provide adequate independent oversight
for the USF program, we are unable to give the Chairman, Congress
and the public an appropriate level of assurance that the program is
protected from fraud, waste and abuse.




                                 19
                          Audits
I. Financial statement audits provide practical assurance about
whether the financial statement of an audited agency presents
the financial position, results of operations, and costs in the
standards of generally accepted accounting principles. These
audits are used to decipher whether or not financial information
is presented according to established or stated criteria. These
audits also reveal if the firm’s internal control over financial
reporting and/or safeguarding assets is designed to adequately
fit the firm and if it is fully implemented to achieve the control
objectives.


Audit of the Commission’s FY 2003 Financial Statement (Report
No. 03-AUD-05-07 Issued on December 19, 2003)

The Federal Communications Commission (FCC) is a covered agency
under the Accountability of Tax Dollars Act of 2002. As a covered
agency, FCC prepares financial statements in accordance with generally
accepted accounting principles per the Government Management Re-
form Act (GMRA) of 1994, which amended the Chief Financial Officers
Act (CFO Act) of 1990, to require annual preparation and audit of or-
ganization wide financial statements of the United States.

In accordance with the Accountability of Tax Dollars Act of 2002, FCC
prepared consolidated financial statements in accordance with Office of
Management and Budget (OMB) Bulletin No. 01-09, Form and Content
of Agency Financial Statements, and subjected them to audit. The Chief
Financial Officers Act of 1990 (Public Law 101-576 referred to as the
“CFO Act”), amended, requires the FCC OIG, or an independent exter-
nal auditor as determined by the Inspector General, to audit agency fi-
nancial statements in accordance with Government Auditing Standards
issued by the Comptroller General of the United States. Under a con-
tract monitored by the OIG, Clifton Gunderson, LLP (CG-LLP), an inde-
pendent public accounting firm, performed the audit of FCC’s FY 2003
financial statements.



                                  20
                           Audits
To fulfill our audit responsibilities under the CFO Act for ensuring the
quality of the audit work performed, we conducted a review of CG-LLP’s
audit of FCC’s FY 2003 financial statements in accordance with Govern-
ment Auditing Standards and OMB Bulletin No. 01-02, Audit Require-
ments for Federal Financial Statements.

Specifically, we:

♦ Reviewed CG-LLP’s approach and planning of the audit
♦ Evaluated the qualifications and independence of its auditors
♦ Monitored the progress of the audit at key points
♦ Examined working papers and audit documents to evaluate compli-
  ance with Government Auditing Standards
♦ Reviewed CG-LLP’s audit reports to ensure compliance with Govern-
  ment Auditing Standards and OMB Bulletin No. 01-02
♦ Performed other procedures deemed necessary




                                   21
                            Audits
Based on the results of our review, we determined CG-LLP planned,
executed and reported the results of its audit of FCC’s FY 2003 financial
statements in accordance with applicable auditing standards. There-
fore, in our opinion, CG-LLP’s work provides a reliable basis for the
firm’s opinion on FCC’s FY 2003 financial statements. Based on our
review of the audit, we concur with CG-LLP’s findings of reportable
conditions related to internal control and instances of noncompliance
with applicable laws and regulations. Accordingly, we concur with its
reports thereon.

♦   Opinion on the Financial Statements

CG-LLP issued an unqualified opinion on FCC’s consolidated balance
sheets as of September 30, 2003 and 2002, the related consolidated
statements of net cost, changes in net position, financing, combined
statement of budgetary resources, and statement of custodial activity.
CG-LLP opined the financial statements referred to above present fairly,
in all material respects, the financial position of the FCC as of Septem-
ber 30, 2003 and 2002, its net cost, changes in net position, budgetary
resources, custodial activity, and reconciliation of net cost to budgetary
resources for the years then ended in conformity with
accounting principles generally accepted in the United States of
America. In performing its internal control testing of controls necessary
to achieve the objectives in OMB Bulletin No. 01-02, CG-LLP identified
matters relating to significant deficiencies in the design or operation of
FCC’s internal control.

In performing its internal control testing of controls necessary to
achieve the objectives in OMB Bulletin No. 01-02, CG-LLP identified
matters relating to significant deficiencies in the design or operation of
FCC’s internal control that, in its judgment, could aversely affect FCC’s
ability to record, process, summarize, and report financial data consis-
tent with the assertions by management in the financial statements.
Specifically, these matters were categorized as material weaknesses
and reportable conditions per definitions of the American Institute of
Certified Public Accountants.



                                    22
                           Audits

CG-LLP identified material weaknesses in the areas of:

♦ Financial Reporting
♦ Auction Transactions
♦ Cost Accounting
♦ Universal Service Fund Financial Reporting: Accounting and Report-
  ing Controls
♦ Information Technology

CG-LLP identified additional reportable conditions not considered to be
material weaknesses, which include:

♦   Revenue Recognition
♦   RAMIS Application and Processes
♦   Payroll Activities
♦   Debt Collection Improvement Act Reporting
♦   OMB Circular Nos. A-127 and A-130 Reviews
♦   Federal Managers’ Financial Integrity Act of 1982 Compliance and
    Reporting

FCC management is responsible for complying with laws and regula-
tions applicable to the agency. To obtain reasonable assurance about
whether FCC’s financial statements are free of material misstatements,
CG-LLP performed tests of compliance with certain provisions of laws
and regulations, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts
and certain other laws and regulations specified in OMB Bulletin No.
01-02, including the requirements referred to in the Federal Financial
Management Improvement Act of 1996. As appropriate, CG-LLP
limited its tests of compliance to these provisions and it did not test
compliance with all laws and regulations applicable to FCC.




                                   23
                           Audits
Tests disclosed instances of noncompliance with specific laws and
regulations required to be reported under Government Auditing
Standards and OMB Bulletin No. 01-02 as follows:

♦ Chief Financial Officer’s Act of 1990
♦ OMB Circular No. A-129, Policies for Federal Credit Programs and
  Non-Tax Receivables
♦ Debt Collection Improvement Act of 1996
♦ Federal Financial Management Improvement Act of 1996

In accordance with generally accepted government auditing standards
the Independent Auditor’s Report prepared by CG-LLP is dated Decem-
ber 8, 2003, the last day of audit fieldwork.

II. Performance audits are systematic examinations of evidence
for the purpose of providing an independent assessment of the
performance of a government organization, program, activity or
function, in order to provide information to improve public
accountability and facilitate decision-making by parties with
responsibility to oversee or initiate corrective action.

The OIG began contract auditing for the purposes of establishing con-
tract audit oversight and providing accounting and financial advisory
services in connection with the negotiation, administration and settle-
ment of contracts and subcontracts to FCC procurement and contract
administrators. In that capacity the Defense Contract Audit Agency
(DCAA) performs audits, reviews and agreed-upon procedures reviews
of contractors providing goods and services to the FCC. These projects
include labor timekeeping reviews, billing system reviews, forward
pricing audits, incurred cost audits, equitable adjustment proposal
audits, etc. throughout the fiscal year.

In addition, OIG staff performs contract audits upon request from FCC’s
Contract and Purchasing Center.




                                  24
                            Audits
1. Report on Pre-award Accounting System Survey and Billing
System Review of Leads Corporation (Audit Report No. 03-AUD-10-
22 issued on October 14, 2003)

The Leads Corporation (Leads) is a contractor with the FCC specializing
in management and technical consulting. The objective of the audit
was to determine whether Leads accounting and billing systems are
adequate for accumulating costs under prospective Government
contracts.

The audit determined that Leads accounting and billing systems were
adequate for accumulating costs under prospective Government
contracts.

2. Report on Computech, Inc. FY 2003 Labor Timekeeping
Review (Issued on December 15, 2003)

Computech, Inc., a professional consulting firm specializing in informa-
tion management, provides information management support for the
Commission’ electronic auction system for commercial communications
licensing.

The objective of the audit was to determine if the contractor consis-
tently complies with established timekeeping system policies and
procedures for recording labor charges.

The audit disclosed no significant deficiencies in the contractor’s time-
keeping or labor system.


III. Program audits assess whether the objectives of both new
and ongoing programs are proper, suitable or relevant, and also
assess compliance with laws and regulations applicable to the
program. This particular type of audit also serves to determine
whether management has reported measures of program
effectiveness that are valid and reliable.



                                    25
                           Audits
1. Survey of Mellon Bank Lockbox Operations (Issued on October
10, 2003)

Mellon Bank in Pittsburgh, PA collects, through its lockbox operations,
FCC’s regulatory and application fees, auction installment loan
payments, and international telecommunications settlements. In
addition, the bank receives “upfront” auction deposits from potential
bidders. During FY 2002, FCC received more than $200 million of
regulatory and application revenue collected through the bank.

The bank’s lockbox operations became a concern after IRS tax returns
for 2000 were intentionally misplaced by the bank’s contractors. The
bank has also recently relocated its lockbox operations to a new
facility.

The objectives of the survey were to observe the lockbox process and
control environment, suggest any enhancements from our review, and
identify areas where additional audit work should be performed.

Survey observations disclosed no concerns that the risks of incorrect
transactions exceeded acceptable risk levels. Based on the results of
the survey, the OIG does not plan to perform additional audit work
relating to FCC lockbox processing beyond its annual review as part of
the Commission’s financial statement audit.

2. Gettysburg Site Interim Physical Security Review (Audit Report
No. 02-AUD-03-11 issued on October 28, 2003)

The FCC moved into its 40,000 square facility Gettysburg, PA in May,
1981. Today, it houses approximately 200 employees. Approximately
93% of all FCC licenses granted are issued there. The FCC Consumer
Center is located there as well as a number of other functions.

As a result of the events of September 11, 2001 the FCC as well as a
number of other Federal agencies refocused their efforts on physical
security. Concurrently, the OIG enhanced its physical security review
program. As part of its program, it plans to conduct a number


                                   26
                           Audits
of physical security reviews at various FCC facilities. The reviews will
include physical access testing, analysis of security processes, and
other tests of physical security. The overall objective of the program is
to identify vulnerabilities and opportunities for improvement in the
FCC’s physical security posture.

This audit was conducted as part of our physical security review
program. To accomplish the audit of the Gettysburg facility the OIG
established a contract with Job Performance Systems, Inc. The guide-
line for performing the report was the Department of Justice’s (DOJ’s)
“Vulnerability Assessment of Federal Facilities.” The document
describes DOJ building security standards developed after the
Oklahoma City Murrah Federal Building disaster.

As a result of the audit, the OIG reported on five security or safety
issues. The Office of the Managing Director (OMD) concurred with two
of the findings and partially concurred on the other three. For all
findings, the OMD outlined the corrective taken and/or a date for
implementation of corrective action.

3. Report on Audit of the E-rate Program at Santa Fe Indian
School, Inc. (Audit Report No. R-GR-FCC-0006-2003 issued on
November 6, 2003)

This E-rate beneficiary audit was conducted as part of our Universal
Service Fund (USF) oversight program. The Santa Fe Indian School,
Inc. (Santa Fe Indian School), located in Santa Fe, New Mexico,
operates an academic program for grades 7 through 12 with a popula-
tion of over 600 students, of which approximately two‑thirds reside in
the School’s dormitories. The objective of this audit was to determine
whether the Santa Fe Indian School complied with the rules and regu-
lations of the E-rate Program and to identify Program areas that may
need improvement. This audit was conducted under the terms of a
Memorandum of Understanding between the Universal Service Adminis-
trative Company (USAC) in conjunction with the FCC OIG and the
Department of Interior’s OIG.



                                   27
                           Audits
We concluded that the Santa Fe Indian School complied with the
program rules and requirements of the E-rate Program for funding
years 1998 through 2001.

4. Survey of Software Technology Purchases (Audit Report No.
03-AUD-08-11 issued on November 20, 2003)

Under guidelines and policies established by the Chairman and the
Managing Director, the Information Technology Center (ITC) is respon-
sible for the overall direction of Commission programs involving the use
of computer and telecommunications systems.

The objective of the survey was to identify possible duplicate software
purchases between core IT services for the Commission as a whole and
services for individual bureaus and offices, then calculate the amount
overspent and make the necessary adjustments to curb future
duplicate purchases.

To accomplish the objectives of this survey we reviewed IT purchasing
information, including documentation on policy, practices, invoices,
templates, checklists and General Services Administration (GSA)
Advantage schedules. Federal government documents, including OMB
circulars, were also reviewed. And interviews were conducted with
other Commission staff who have expertise on this subject.

Based on the results of this survey, the OIG will not perform additional
audit work on the purchases of IT software within the Commission.
There currently is enough information to demonstrate that items are
duplicated in the purchase orders between the two offices, yet proce-
dures have recently been developed to prevent future purchases from
being duplicated. We will continue to analyze invoices with GSA Advan-
tage schedules for the best method for purchasing software and we will
review the new procedures that OMD has implemented.




                                   28
                          Audits
5. Report on Audit of the Revenue Accounting and Management
Information System (RAMIS), (Audit Report No. 03-AUD-01-01
issued on November 24, 2003)

The Federal Communications Commission’s Revenue Accounting and
Management Information System (RAMIS) is a mission critical infor-
mation system responsible for the processing of all FCC receivable
transactions. As the Commission’s internal revenue management sys-
tem, RAMIS supports application and regulatory fee accounting, spec-
trum auction loan portfolio management, accounting for auction pro-
ceeds, accounting for enforcement actions, and other accounts receiv-
able. It is imperative that RAMIS be secured against internal and ex-
ternal computer security threats.

The objective of this audit was to determine the extent and effective-
ness of application and security controls of RAMIS. KPMG, LLP was en-
gaged to perform an independent audit of the application and security
controls over RAMIS. To achieve our objectives, we performed a re-
view of RAMIS and its related network components using the National
Institute of Standards and Technology (NIST) 800-26 Self-Assessment
Guide, as well as guidance from the Federal Information System
Controls Audit Manual (FISCAM). The general controls review was
performed to assess controls related to the risk assessment process,
access controls, system software, service continuity, security program
planning, incident response, and application change controls. During
the application controls review component, we evaluated authoriza-
tion, completeness, and accuracy controls as well as controls over in-
tegrity of processing and data files. A review of the RAMIS database
was
performed to assess the security controls over critical databases,
tables, and records, which included such information as payment
amounts and RAMIS password controls. The final component of our
audit of RAMIS application and security controls was a vulnerability
assessment. The vulnerability assessment evaluated whether RAMIS
and its related network components are secure from unauthorized
intrusion and misuse, vulnerable to attacks, and accessible via unau-
thorized paths.

                                  29
                           Audits
Our audit yielded several positive observations about RAMIS. We also
identified areas of improvement for the FCC’s security controls over
RAMIS. This report details the conditions identified during our audit
and communicates findings and recommendations to FCC manage-
ment. Specifically, we identified twenty-two (22) findings in the areas
of management, operational, and technical controls. The recommen-
dations we generated and actions already begun by the FCC should re-
sult in the correction of present vulnerabilities and minimization of the
risk of occurrence of future security-related events.

6. Report on Supervisor/Manager Telecommuting Survey (Audit
Report No. 03-AUD-09-17 issued on November 25, 2003)

The Commission established its Flexible Workplace Program (also
known as telecommuting or telework) on June 8, 2000 to increase
productivity, improve employee morale and job satisfaction, reduce
absenteeism at the Commission, and enhance the Commission’s
Bureau and Office efforts to accomplish their respective missions.

We designed and conducted this survey to determine whether the
Commission was achieving its stated objectives with its Flexible
Workplace Program.

We found that the Commission’s Flexible Workplace Program Policy
complies with Federal Policy. We also discovered that the FCC
employee participation rate of 21% and 25% for fiscal years 2001 and
2002 significantly exceed Federal agency telecommuting averages of
4.2% and 5% for those same years.

We learned from the survey responses that Commission supervisors
and managers support the Flexible Workplace Program, primarily
because their telecommuting employees exhibit improved morale and
job satisfaction and tend to use a little less leave than their non-
telecommuting counterparts. However, they were neutral about how
their employees’ participation in the program achieves the FCC’s goals




                                   30
                           Audits
of increasing employee productivity and reducing supervisor/manager
oversight or monitoring in accomplishing their respective mission
objectives.

As a result, we recommend that the Commission provide training to
supervisors and managers to ensure that they are aware of the
Flexible Workplace program’s policies and procedures and of their
authority and responsibilities for supervising employees who participate
in the program.

7. Report on Audit of the E-rate Program at St. Matthew
Lutheran School (Audit Report No. 02-AUD-02-04-07 issued on
December 22, 2003)

This E-rate beneficiary audit was conducted as part of our Universal
Service Fund (USF) oversight program. St. Matthew Lutheran School is
a small religious/private school located in the Washington Heights
Section of New York City operating an academic program for pre-
kindergarten to 8th grade classes. The objective of this audit was to
determine whether St. Matthew Lutheran School complied with the
rules and regulations of the E-rate Program and to identify Program
areas that may need improvement.

We concluded that St. Matthew Lutheran School was not compliant with
the requirements of the program for funding years 1999 and 2000.
The audit resulted in ten (10) specific findings and $55,639 in potential
fund recoveries as a result of those audit findings. However, in light of
the multitude of findings and systemic noncompliance with Commission
rules and program requirements, we recommended that the Commis-
sion recover the full amount of $136,593 disbursed on behalf of St.
Matthew Lutheran School in funding years 1999 and 2000. Specific
findings were as follows:




                                   31
                          Audits
   1. The Technology plan was not approved in funding years 1999
      and 2000.
   2. An unacceptable methodology was used to calculate the discount
      percentage, resulting in an overpayment of $13,161.
   3. St. Matthew Lutheran School did not budget for the non-
      discounted portion of the costs.
   4. St. Matthew Lutheran School did not pay the non-discounted
      portion of the costs.
   5. The service provider billed for T-1 internet access but provided
      less functional integrated services digital network (ISDN) ser-
      vices, resulting in an overpayment of $30,642.
   6. Other unauthorized changes were made to the approved sys-
      tem, resulting in a system with less functionality and payments
      of $8,631 for assets purchased and not installed.
   7. The service provider billed for recurring maintenance costs that
      were not provided resulting in an overpayment of $3,205.
   8. Contracts with the service provider were signed prior to the
      allowable date.
   9. There was no documented competitive bidding process.
  10. St. Matthew Lutheran School did not have adequate resources
       to effectively utilize the services provided.


8. Report on Audit of the E-rate Program at Prince William
County Schools (Audit Report No. 02-AUD-02-04-11 issued on
December 22, 2003)

This E-rate beneficiary audit was conducted as part of our Universal
Service Fund (USF) oversight program. Prince William County Schools
is a public school system located in Prince William County, Virginia.
The objective of this audit was to determine whether Prince William
County Schools complied with the rules and regulations of the E-rate
Program and to identify Program areas that may need improvement.

We concluded that Prince William County Schools was compliant in
most respects with the requirements of the program for funding year
1999. However, the audit identified one area of noncompliance.

                                  32
                           Audits
Eighty-five (85) cellular phones associated with a cellular service con-
tract were identified as paid for by SLD but not compliant with the edu-
cational purpose requirements of e-rate funding. We recommended that
the Commission recover $5,452 for the ineligible cellular phones.

9. Report on Audit of the E-rate Program at Arlington Public
Schools (Audit Report No. 02-AUD-02-04-12 issued on December 22,
2003)

This E-rate beneficiary audit was conducted as part of our Universal Ser-
vice Fund (USF) oversight program. Arlington Public Schools is a public
school system located in Arlington County, Virginia. The objective of this
audit was to determine whether Arlington Public Schools complied with
the rules and regulations of the E-rate Program and to identify Program
areas that may need improvement.

We concluded that Arlington Public Schools was compliant in most re-
spects with the requirements of the program for funding year 1999.
However, the audit identified one area of noncompliance. One hundred
and ninety-five (195) pagers associated with a paging services contract
were identified as funded and paid for by SLD but were not compliant
with the educational purpose requirement of e-rate. We recommended
that the Commission recover $7,556 for the ineligible paging services.

10. Report on Audit of the E-rate Program at Navajo Preparatory
School, Inc. (Audit Report No. R-GR-FCC-0005-2003 issued on January
7, 2004)

This E-rate beneficiary audit was conducted as part of our Universal
Service Fund (USF) oversight program. The Navajo Preparatory School,
Inc. (Navajo Preparatory School) is located in Farmington, New Mexico
on the 82.45 acre site of the former campus of the Navajo Methodist
Mission School. The objective of this audit was to determine whether
the Navajo Preparatory School complied with the rules and regulations
of the E-rate Program and to identify Program areas that may need
improvement. This audit was conducted by the Department of Interior
OIG under the terms of a Memorandum of Understanding with the
Universal Service Administrative Company (USAC) and the FCC OIG to


                                   33
                            Audits
conduct audits of E-rate beneficiaries.

We concluded that the Navajo Preparatory School did not comply with
the requirements of the E-rate program for funding year 2001. The
audit resulted in eight (8) specific findings and $1,000,592 in potential
fund recoveries as a result of those audit findings. In light of the multi-
tude and severity of findings and systemic noncompliance with
Commission rules and program requirements, we recommended that
the Commission recover the full amount of $2,084,399.45 disbursed on
behalf of Navajo Preparatory School in funding year 2001. Specific
findings were as follows:

   1. The technology plan was not properly approved or adequately
      prepared.
   2. The discount rate was not supported.
   3. The service contract was not competitively awarded.
   4. Services were put in ineligible buildings.
   5. Buildings were not wired.
   6. Equipment was not installed as approved.
   7. The school’s program support funding appears insufficient.
   8. Applications for services were inflated and services installed were
      underutilized.

11. Report on Fiscal Year 2003 Federal Information Security
Management Act (FISMA) Evaluation and Risk Assessment
(Audit Report No. 03-AUD-06-09 issued on February 6, 2004)

The Federal Information Security Management Act (FISMA) focuses on
the program management, implementation, and evaluation aspects of
agency security systems. FISMA requires that Inspectors General, or
the independent evaluators they choose, perform an annual evaluation
of each agency’s information security program and practices. We
contracted with KPMG, LLP to perform the independent evaluation.

On September 22, 2003, we issued a report, entitled “FY 2003 Federal
Information Security Management Act (FISMA) Independent
Evaluation,” summarizing the results of our independent evaluation.


                                    34
                           Audits
As a result of the independent evaluation, we have concluded that the
Commission has a generally effective information security program
with acceptable practices for managing and safeguarding the Federal
Communications Commission’s (FCC’s) information technology assets.
Our report, comprised of an executive summary and an independent
evaluation, was included in a package of information provided by the
Commission to the Office of Management and Budget (OMB) on
September 22, 2003.

However, during the independent evaluation, we identified areas for
improvement in the FCC’s information security management, opera-
tional and technical controls. The evaluation identified seven (7) new
findings in the areas of management, operational, and technical
controls. Additionally, we determined that eight (8) of the conditions
identified during the FY 2002 and FY 2001 Government Information
Security Reform Act (GISRA) evaluations had not been fully corrected
at the time of audit fieldwork. Implementation of our recommenda-
tions and correction of the prior year conditions will strengthen
the security of the Commission’s information security program.

12. Payroll Fraud Detection Survey (Issued on March 17, 2004)

Increasing security issues facing other federal agencies in the past
several years have justified a concern for fraudulent activity in payroll
systems within the Office of Inspector General (OIG) of the FCC. No
inquiry of this nature has been initiated by the Commission or the OIG
in recent years. This survey was performed to determine if an audit of
personal security of FCC employees was warranted.

The objectives of this survey were to indicate if any FCC employee was
utilizing an invalid Social Security Number (SSN), document any anom-
aly that arose while comparing SSNs to various databases, and identify
areas where more audit work should be performed.

Our survey disclosed no discrepancies with employee social security
numbers. Based on these results, an audit is not warranted relating to
payroll fraud detection.


                                    35
                           Audits
13. Report on Audit of the E-Rate Program at Immaculate
Conception School (Audit Report No. 02-AUD-02-04-20 issued on
March 24, 2004)

This E-rate beneficiary audit was conducted as part of our Universal
Service Fund (USF) oversight program. Immaculate Conception School
is a Catholic school located in the south Bronx section of New York City
and teaches pre-kindergarten to 8th grade classes. The objective of
this audit was to determine whether Immaculate Conception School
complied with the rules and regulations of the E-rate Program and to
identify Program areas that may need improvement.

We concluded that Immaculate Conception School was not compliant
with the requirements of the program for funding years 1998 through
2000. The audit resulted in seven (7) specific findings and $68,846
identified as potential fund recoveries as a result of those audit find-
ings. Based on the results of the audit, we recommended that the
Commission recover $68,846 disbursed on behalf of Immaculate Con-
ception School. Specific findings were as follows:

   1. Immaculate Conception School did not pay the entire nondis-
      counted portion of the costs.
   2. Internal connections equipment purchased with E-rate funds was
      missing, resulting in overpayments of $33,060.
   3. The service provider billed for T-1 internet access but provided
      less functional integrated services digital network (ISDN) service,
      resulting in overpayments of $16,065.
   4. Wiring and installation costs were determined to be unreasonable
      for funding year 1999, resulting in $19,440 in inappropriate fun-
      ding disbursements.
   5. Ineligible telecommunications services were claimed on FCC Form
      472 Billed Entity Reimbursement Application (BEAR) Forms for
      funding year 2001, resulting in over-reimbursements of $281.
   6. There was no documented competitive bidding process.
   7. Support was lacking for the calculation of the E-Rate discount
      percentage for funding years 1998 and 1999.



                                    36
                           Audits
14. Telephone System Survey (Issued on March 25, 2004)

This survey was conducted as a follow-up to a similar survey conducted
in 1999. The Office of the Inspector General wanted to identify what, if
any, changes had taken place since the conclusion of the first survey.
The objective of this survey was to assess the availability of telephones
in the FCC that would accept long-distance and international numbers.
If any telephone open to all employees would accept a long-distance or
international call, phone records would be obtained from the Commis-
sion and examined.

Our survey disclosed no risk of inappropriate telephone usage. Based
on these results an audit is not recommended of the telephone system.

IV. Work-In-Process Reports on the following audits were not
completed as of the date of the publication of this report.

1. Risk Assessment of the FCC’s Human Capital Management
Framework

The objective of this risk assessment is to evaluate the FCC’s imple-
mentation of the Human Capital Framework issued by the Office of
Personnel Management (OPM). We will also determine the status of
the FCC’s human capital management to determine if additional audit
work in the area is needed. This review was initiated in July 2003 and
we anticipate issuing our report in the 3rd Quarter of FY 2004.

2. FY 2004 FISMA Evaluation

The Federal Information System Management Act (FISMA) focuses on
the program management, implementation, and evaluation aspects of
agency security systems. FISMA replaced the Government Information
Security Reform Act (GISRA) which expired in November 2002. A key
provision of the FISMA requires that Inspectors General perform an
annual independent evaluation of Agency information security pro-
grams. The objective of this independent evaluation is to examine the



                                   37
                            Audits
Commission’s security program and practices for major applications.
We anticipate issuing an audit report with findings and recommenda-
tions in the 4th quarter of 2004.

3. Web Presence Audit Follow-up

This objective of this audit is to determine the status of findings identi-
fied in OIG’s prior audit of this area. Additionally, we will perform tests
of the security posture of the FCC’s web presence. This audit was
initiated in September 2003 and we anticipate issuing an audit report
during the 3rd quarter of FY 2004.

4. Physical Review of Enforcement Bureau Facilities and Moni-
toring Station of Commission Facilities

We have initiated an audit of Commission facilities other than its
Gettysburg, PA location and headquarters. We anticipate issuing a
report during the 3rd quarter of FY 2004.

5. Continuity of Operations (COOP) and Disaster Recovery Plans
(DRP) Audit

In the post 9/11 environment, contingency planning and business
continuity are critical. In 2002, the FCC began to develop and business
continuity plans. The objective of this audit is to determine the
progress of FCC’s contingency planning and business continuity
program and determine if the FCC has a useable and viable program.

This audit was initiated in September 2003 and we anticipate issuing a
report during the 4th quarter of FY 2004.

6. Defense Contract Audit Agency (DCAA) Audit Services

The objectives of these reviews are to task DCCA with performing
contract audits of contractors providing goods and services to the




                                    38
                           Audits
Commission. Reviews include labor timekeeping reviews, billing
system reviews, forward pricing audits, incurred cost audits, equitable
adjustment audits, etc.

Contract audit activities are on-going and will continue throughout FY
2004.

7. Survey of Fee Collections

The objective of this survey will be to examine the Commissions fee
collection process to determine whether we can reasonably assure that
all applicable licensing and regulatory fees are being collected. The OIG
will review both manual and automated controls over the fee collection
process. We will also attempt to decide if a viable process exists to
determine if all licenses have paid their applicable fees.

8. Audit of the Commission’s FY 2004 Financial Statement

The FCC is a covered agency under the Accountability of Tax Dollars
Act of 2002. As a covered agency, FCC prepares financial statements
in accordance with generally accepted accounting principles per the
Government Management Reform Act (GMRA) of 1994 which amended
the Chief Financial Officers Act (CFO Act) of 1990 to require annual
preparation and audit of organization-wide financial statements.

This audit will be performed as part of our commitment to support
management’s efforts to align the FCC’s Financial accounting and re-
porting systems with related accounting principles, federal laws and
regulations, and policy guidelines. This is not only important internally
to the FCC’s operations, but is also necessary to the audit of the Con-
solidated Financial Statements of the United States. The objective of
this audit is to provide an opinion on the FY 2004 financial statements.

In accordance with the Accountability of Tax Dollars Act of 2002, FCC
prepares consolidated financial statements in accordance with Office of
Management and Budget (OMB) Bulletin No. 01-09, Form and Content
of Agency Financial Statements, and subjects them to audit. The Chief


                                    39
                           Audits
Financial Officers Act of 1990 (Public Law 101-576 referred to as the
“CFO Act”), amended, requires the FCC OIG, or an independent exter-
nal auditor as determined by the Inspector General, to audit agency fi-
nancial statements in accordance with Government Auditing Standards
issued by the Comptroller General of the United States. Under a con-
tract monitored by the OIG, CG-LLP, an independent accounting firm, is
performing the audit of FCC’s FY 2004 financial statements.

At the close of this semi-annual period, CG-LLP and OIG auditors have
substantially completed comprehensive planning and recently initiated
interim testing of internal controls. Interim substantive testing is
planned for the March 31 and June 30 submissions to OMB. The OIG
expects to issue the Independent Auditors’ Reports in the first quarter
of FY2005 in accordance with the accelerated year-end financial state-
ment submission date of November 15, 2004.

9. NBANC Equitable Adjustment Proposal Audit

The evaluation focuses on determining the reasonableness, the costs
allocable and allowable submitted by NBANC related to its proposed in-
creased costs due to the events giving rise to the adjustment. Because
NBANC provides billing and collection services for the North American
Numbering Plan under 47 CFR Part 52.12, with no express Government
contract in place, audit scope will generally depend on individual cir-
cumstances. In general this review will evaluate NBANC’s compliance
with applicable acquisition regulations, report and order, and letter
terms as appropriate. We anticipate issuing our report during the third
quarter of FY 2004.




                                   40
                Management
♦ External Audit of Quality Control

The OIG of the Equal Employment Opportunity Commission (EEOC)
performed a review of our system of quality control to determine if we
were in compliance with quality control standards. We received their
draft report on our quality system on March 26, 2004. Subsequent to
the semiannual reporting period (on April 19, 2004) we received their
final report. They determined that our system was compliant and
issued an unqualified opinion.

♦ Specialized Training and Activities

In our continuing effort to expand the expertise of our audit staff, two
auditors attended the 10 day, non-criminal investigator training at the
Federal Law Enforcement Agency in Georgia.

♦ Report Availability

The OIG audit and other types of reports can generally be obtained via
the Internet from the OIG web page located on the FCC website at
http://www.fcc.gov/oig. However, OIG reports containing sensitive or
proprietary information will be restricted to specific individuals and
organizations with a need to know the detailed information.

♦ Internships

The OIG welcomes college interns during the fall, spring and summer.
Most of these students take their internships for credit. Recent interns
have come from schools across the country, including Hamilton College
UC Berkeley, American University, Georgetown University, DePauw
University, and James Madison University.

These internships prove to be a rewarding experience for both parties.
Students leave with a good understanding of how a government agency
is run, and they have the opportunity to encounter the challenges
involved in governance and regulation. In turn, the office benefits from
the students’ excellent work performance that reflects their youth and
exuberance.

                                   41
                 Investigations
OVERVIEW

       Investigative matters pursued by this office are generally initi-
ated as a result of allegations received through the OIG Hotline or from
FCC managers and employees who contact the OIG directly. Investiga-
tions may also be predicated upon audit or inspection findings of fraud,
waste, abuse, corruption, or mismanagement by FCC employees, con-
tractors, and/or subcontractors. Upon receipt of an allegation of an ad-
ministrative or criminal violation, the OIG usually conducts a prelimi-
nary inquiry to determine if an investigation is warranted. Investiga-
tions may involve possible violations of regulations regarding employee
responsibilities and conduct, federal criminal law, and other regulations
and statutes pertaining to the activities of the Commission. Investiga-
tive findings may lead to criminal or civil prosecution, or administrative
action.

      The OIG also receives complaints from the general public, both
private citizens and commercial enterprises, about the manner in which
the FCC executes its programs and oversight responsibilities. All com-
plaints are examined to determine whether there is any basis for OIG
audit or investigative action. If nothing within the jurisdiction of the
OIG is alleged, the complaint is usually referred to the appropriate FCC
bureau or office for response directly to the complainant. Over the pe-
riod of the last several semi-annual periods, the OIG has increasingly
served as a facilitator in the Commission responding to those com-
plaints that are outside the jurisdiction of this office. In many instances
where the nature of the complaint does not fall within the jurisdiction of
the OIG, a copy of the response is also provided to the OIG. Finally,
matters may be referred to this office for investigative action from
other governmental entities, such as the General Accounting Office, the
Office of Special Counsel or congressional offices.


ACTIVITY DURING THIS PERIOD

       Twenty-eight cases were pending from the prior period. Twenty-
six of those cases involve the Commission’s Universal Service Fund

                                    42
                  Investigations
(USF) program and have been referred to the Federal Bureau of inves-
tigation (FBI) and/or the Department of Justice and the investigations
are ongoing. An additional ten non-USF complaints were received dur-
ing the current reporting period. Also, during this period, for tracking
purposes, 17 USF-related cases were received. Over the last six
months eight cases have been closed. A total of 47 cases are still pend-
ing, 42 of which relate to the USF program. The OIG continues to moni-
tor, coordinate, and/or support activities regarding those 42 investiga-
tions. The investigations pertaining to the pending five non-USF cases
are ongoing.


STATISTICS

Cases pending as of October 1, 2003…....……………………………             28

New cases..……………………………………………………………………………                        27

Cases closed…………………………………………………………………………                          8

Cases pending as of March 31, 2004………………………….……….               47

SIGNIFICANT INVESTIGATIVE CASE SUMMARIES

       The OIG initiated an inquiry into allegations of the misuse of offi-
cial resources by an employee by allegedly conducting a real estate
business during official hours. As part of the investigation, an analysis
was performed of a sampling of the employee’s work station activities.
Based on the analysis, while unofficial documents were found, the OIG
was unable to find sufficient evidence from which to conclude that the
employee was conducting any type of business let alone a real estate
business on official time and/or abusing official resources. Accordingly,
the matter has been closed.

      The OIG initiated an inquiry into allegations of the possible abuse
of authority by a Commission employee with regard to the processing
of a consumer request for a declaratory ruling. Specifically, it was al-
leged that the employee in his or her role deliberately delayed the

                                      43
                 Investigations
processing of the request. Through investigation, the OIG was unable
to find any evidence of employee misconduct with regard to the proc-
essing of the request. It was determined that the employee lacked any
decisional authority or responsibility and thus did not possess the abil-
ity to delay or impede the processing of the complaint. The matter has
been closed.

      The OIG initiated an inquiry into the alleged release of non-public
information involving the Commission’s consideration of total-element
long-run incremental cost methodology. It was alleged that a copy of a
report pertaining to the subject matter had been disclosed to the me-
dia. A review by the Computer Security Office of the Commission’s
computer system indicated that the document was not transmitted
electronically. Further, it was determined that the document was ac-
cessible throughout the Commission. For this reason and the inability
of the OIG to discover any evidence to narrow down the scope of indi-
viduals who could have released or disclosed of the document, the mat-
ter has been closed.

       The OIG has initiated an inquiry into the allegations of miscon-
duct by employees with respect to a contractor’s termination of a sub-
contract concerning document management. Specifically, it was al-
leged by the subcontractor that Commission employees improperly
caused the termination of his services. The Commission had con-
tracted with the contractor for services related to document manage-
ment and the contractor subcontracted an aspect of the services to be
performed to a subcontractor. Subsequently, the Commission decided
to delay implementation of that aspect of the services that had been
subcontracted by the contractor and the contractor terminated the ser-
vices of the subcontractor. Through investigation, no evidence of em-
ployee misconduct was found. Further, it was determined that the
Commission’s action complied with its contract with the contractor. For
this reason and in light of the fact that there was not any contractual
relationship between the Commission and the subcontractor, the mat-
ter has been closed.

      The OIG initiated an inquiry into allegations of the improper
transfer of a radio license. Specifically, it was alleged that based on

                                    44
                Investigations
improper considerations by the Commission, a radio license transfer
was approved. The matter is currently pending.

      The OIG has initiated an inquiry into the possible improper de-
struction and/or removal of information on a Commission computer
work station. The matter is currently pending.

        The OIG initiated an inquiry into allegations that a Commission
employee violated applicable ex parte rules by improperly requesting
information from a party in a pending Commission proceeding.
Through investigation, it was determined the information sought was
clarification of evidence that was already in the record. Further, it was
determined that under Commission ex parte rules such requests are
permissible. Accordingly, the OIG was unable to find any evidence of
employee misconduct and the matter was closed.

      The OIG continues to coordinate and provide assistance to law
enforcement entities with respect to investigations pertaining to infrac-
tions within the Universal Service Fund program of the Commission.




                                    45
                     Legislation
Overview

      Pursuant to section 4(a)(2) of the Inspector General Act of 1978
(IG Act), as amended, our office monitors and reviews existing and
proposed legislative and regulatory items for their impact on the Office
of the Inspector General and the Federal Communications Commission
programs and operations. Specifically, we perform this activity to
evaluate their potential for encouraging economy and efficiency and
preventing fraud, waste and mismanagement.


∗   Legislative Activity During This Period

     The Counsel to the IG continued to monitor legislative activities
affecting the activities of the OIG and the FCC.

    During this period, this office continued to monitor legislation and
legislatively related proposals, which directly or indirectly impact on the
ability of Designated Federal Entity IGs to function independently and
objectively. As previously noted, the office monitored the legislation
granting statutory law enforcement authority to certain designated
OIGs. This office was not among the designated OIGs under the legis-
lation. However, again as previously noted, the legislation was moni-
tored with respect to any possible indirect impact that it may have on
this office’s operations. Under the legislation, there are peer review re-
quirements for the designated OIGs that may have an impact on the
non-designated OIGs. In this vein, this office continues to work with
and participate in discussions with other OIGs with respect to, among
other things, the development and implementation of a peer review
process for non-designated OIGs.




                                    46
                       IG Hotline
HOTLINE CALLS

During this reporting period, the OIG Hotline Technician received 265
hotline calls to the published hotline numbers of (202) 418-0473 and
1-888-863-2244(toll free). The OIG Hotline continues to be a vehicle
by which Commission employees and parties external to the FCC can
contact the OIG to speak with a trained Hotline Technician. Callers
who have general questions or concerns not specifically related to the
missions or functions of the OIG office are referred to the FCC National
Call Center (NCC) at 1-888-225-5322. In addition, the OIG also refers
calls that do not fall within its jurisdiction to such other entities as other
FCC offices, federal agencies and local or state governments.
Examples of calls referred to the NCC or other FCC offices include
complaints pertaining to customers’ phone service and local cable
providers, long-distance carrier slamming, interference, or similar
matters within the program responsibility of other FCC bureaus and
offices.



            Hotline Calls Record
       October 1, 2003 - March 31, 2004
               Total Calls: 265

                              4      12
                              6    10
                                                      63 OIG Staff
                                                58
                                                           Other FCC
                                                           Offices
                                                           Other Federal
                                                           Agencies
                                                           Local/State
                                                  8        Gov't. or Police
        183                                                CGB

                                                      10
           178




                                      47
Report Fraud, Waste or Abuse to:


      Office of the Inspector General
      Federal Communications Commission




                                                 CALL
                                         Hotline: (202) 418-0473
                                                    or
                                             (888) 863-2244
                                            www.fcc.gov/oig



 You are always welcome to write or visit.
      ABC         OPER        ABC
        2          0           2


      GHI                     TUV
        4          1           8


 OPER       GHI        PQRS        DEF
  0          4           7          3

                   Federal Communications Commission
                            Portals II Building
                    445 12th St., S.W. –Room #2-C762

                                          48
               Specific Reporting Requirements
                 of the Inspector General Act

The following summarizes the Office of Inspector General re-
sponse to the 12 specific reporting requirements set forth in
Section 5(a) of the Inspector General Act of 1978, as amended.

1. A description of significant problems, abuses, and deficiencies relat-
   ing to the administration of programs and operations of such estab-
   lishment disclosed by such activities during the reporting period.

Refer to the Section of the semiannual report entitled “Universal Ser-
vice Fund” on pages 2 through 17.

2. A description of the recommendations for corrective action made by
   the Office during the reporting period with respect to significant
   problems, abused, or deficiencies
   identified pursuant to paragraph (1).

Refer to the Section of the semiannual report entitled “Universal Ser-
vice Fund” on pages 2 through 17.

3. An identification of each significant recommendation described in
   previous semiannual reports on which corrective action has not yet
   been completed.

No significant recommendations remain outstanding.

4. A summary of matters referred to authorities, and the prosecutions
   and convictions which have resulted.

Sixteen cases associated with the Commission’s Universal Service Pro-
gram have been referred to the Department of Justice.

5. A summary of each report made to the head of the establishment
   under section (6)(b)(2) during the reporting period.


No report was made to the Chairman of the FCC under section
(6)(b)(2) during the reporting period.


                                    49
                Specific Reporting Requirements
                  of the Inspector General Act

6. A listing, subdivided according to subject matter, of each audit re-
port issued by the office during the reporting period, and for each au-
dit report, where applicable, the total dollar value of questioned costs
(including a separate category for the dollar value of unsupported
costs) and the dollar value of recommendations that funds be put to
better use. Each audit report issued during the reporting period is
listed according to subject matter and described in part II, above.

7. A summary of each particularly significant report.

Each significant audit and investigative report issued during the report-
ing period is summarized within the body of this report.

8. Statistical tables showing the total number of audit reports with
   questioned costs and the total dollar value of questioned costs.

The required statistical table can be found at Table I to this report.

9. Statistical tables showing the total number of audit reports with rec-
   ommendations that funds be put to better use and the total dollar
   value of such recommendations.

The required statistical table can be found at Table II to this report.

10.A summary of each audit report issued before the commencement
   of the reporting period for which no management decision has been
   made by the end of the reporting period (including the date and title
   of each such report), an explanation of the reasons why such a
   management decision has not been made, and a statement concern-
   ing the desired timetable for achieving a management decision on
   each such report.

No audit reports fall within this category.

11.A description and explanation of the reasons for any significant re-
   vised management decision made during the reporting period.

No management decisions fall within this category.

                                    50
              Specific Reporting Requirements
                of the Inspector General Act

12.Information concerning any significant management decision with
   which the Inspector General is in disagreement.

No management decisions fall within this category.




                                  51
OIG Reports With Questioned Costs
Table I.
 Inspector Gen-
  eral Reports         Number of        Questioned    Unsupported
With Questioned         Reports           Costs          Costs
      Costs
  A. For which no
 management deci-
sion has been made         -                 -             -
  of the reporting
       period.
 B. Which were is-
sued during the re-
  porting period.         5             2, 302, 846        -

       Subtotals
         (A+B)            5             2, 302, 846        -

   C. For which a
 management deci-
sion was made dur-         -                 -             -
  ing the reporting
       period.
(i) Dollar value of
 disallowed costs          -                 -             -
(ii) Dollar value of
    costs allowed          -                 -             -

  D. For which no
 management deci-
sion has been made        5             2, 302, 846        -
  by the end of the
 reporting period.
 Reports for which
no management de-
  cision was made          -                 -             -
 within six months
     of issuance.
                                   52
            OIG Reports With Recommendations That Funds
                         Be Put To Better Use
Table II.
 Inspector General Reports
  With Recommendations              Number of Reports   Dollar Value
 That Funds Be Put To Bet-
           ter Use
 A. For which no management
 decision has been made by the
commencement of the reporting               -                -
            period.
B. Which were issued during the             -                -
       reporting period.

                     Subtotals              -                -
                       (A+B)
C. For which a management de-
cision was made during the re-
        porting period.                     -                -
   (i) Dollar value of recommen-
dations that were agreed to by
management.                                 -                -
   -Based on proposed manage-               -                -
ment action.
    -Based on proposed legisla-             -                -
tive action.
   (ii) Dollar value of recommen-
dations that were not agreed to
by management.                              -                -
  D. For which no management
  decision has been made by the
   end of the reporting period.             -                -
For which no management deci-
sion was made within six months
          of issuance.                      -                -

                                       53
